Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    PRESCRIPTION DRUG USE
      IN NURSING HOMES



                  Report 1

      An Introduction   Based on Texas




                        JUNE GIBBS BROWN
                        Inspector General

                           November 1997
                           OEI-06-96-00080
                      EXECUTIVE                      SUMMARY

PURPOSE

To describe the extent and appropriateness of drug use by Medicare and Medicaid residents
of Texas nursing homes.

BACKGROUND

Payments for prescription drugs represent a large portion of Medicaid’s expenditures for
nursing homes. In fiscal year 1995, Medicaid payments for prescription drugs reached $9.8
billion. Medicaid provided services for 1.7 million nursing home residents in the same year.
Prescription drug costs are estimated to range from $600 to $1000 per resident. This implies
that between $1 billion and $1.7 billion of those payments went for prescription drugs in
nursing facilities.

Several recent studies suggest that the use of inappropriate or contraindicated drugs is a
contributing factor to the high health care costs in the elderly population. The primary goal
of drug therapy for nursing home patients is to maintain and improve, to the extent possible,
the patient’s functional capacity and quality of life. The Omnibus Budget Reconciliation Acts
(OBRA) of 1987 and 1990, in recognition of this, require the regulation of certain drugs in
nursing homes and the establishment of drug utilization review programs for nursing home
residents. Provisions of the OBRA 1990, while not required for all nursing homes, also
clearly establish Congress’ desire to involve pharmacists more actively in patient care.

We undertook this inspection, using three different approaches, to provide insight into
several issues related to prescription drug use in nursing homes. These issues are addressed
in three reports, of which this is the first. To assess the extent of prescription drug use for
Medicare and Medicaid nursing home residents, we obtained Medicaid data for Texas for
calendar years 1992 through 1994 and the first six months of 1995.l We report total
program expenditures by year and total expenditures by drug class, offering a more detailed
understanding of precisely what types of drugs are being used in nursing homes and in what
volume they are being used. We also consider expenditures on drugs regulated by the OBRA
1987 or deemed inappropriate for use in elderly populations.

The second report of this series, “An Inside View by Consultant Pharmacists,” presents the
results of a national survey of consultant pharmacists who perform Federally-mandated
monthly drug regimen reviews in nursing homes. The third report, “A Pharmaceutical
Review and Inspection Recommendations” (OEI-06--96-00082), discusses results from an
independent review of drugs and medical records for a sample of Texas nursing home
patients. Recommendations addressing the issues and concerns raised collectively by all
three reports are located in the third and final report of this inspection.




                                                 i
FINDINGS

Taken together, the three reports of this inspection show that while progress has been
made in improving pharmacy practices in nursing homes, some weaknesses and
vulnerabilities still exist which warrant attention. Following are the findings from the
first report:

Prescription drug payments for Texas Medicare and Medicaid nursing home residents have
increased rapidly, rising by 20 percent from 1992 to 1994.

  0    The average payment per beneficiary increased 20 percent from 1992 to 1994, much
       faster than the one percent increase in beneficiaries receiving drugs and substantially
       greater than the rate of inflation for this period.

  �    Drug payments for this population are a significant portion of State and Federal
       program expenditures; more than 17 percent ($91 million) of Texas’ total prescription
       drug payments of $535 million were for the Medicare and Medicaid nursing home
       population.

Some nursing home residents are receiving drugs which are potentially inappropriate or not
medically necessary, raising cost and quality of care concerns.

It is important to understand that reports of possible “inappropriate” use of medications are
somewhat a matter of opinion. Ultimately, for nursing home patients, it is either the
patient’s attending physician or the facility’s medical director who determines what is
appropriate care.

  �    In 1994 almost 20 percent, more than 16,600, of Texas’ Medicaid and Medicare
       beneficiaries received at least one of twenty drugs considered by medical experts to be
       inappropriate for elderly use due to side effects or other consequences.

  �    It does appear that a slight reduction has been achieved for the twenty most frequently
       discussed potentially inappropriate drugs. The percentage of beneficiaries receiving at
       least one of the drugs has shifted downward from 21.2 percent in 1992 to 17 percent
       for the first half of 1995. However, the rate of resident use of contraindicated drugs
       remains high enough to be a continuing serious concern.

Five drug categories account for an expanding majority of total payments for prescription
drugs.

  �    Gastrointestinal drugs, drugs for cardiovascular and cardiac care, psychotherapeutics,
       and antiinfective drugs combine to total more than half of Medicaid payments for
       prescription drugs in this population.

  �    Total payments for drugs in these categories increased at very high rates, ranging
       from 60 percent to 94 percent, between 1992 and 1994.
Departmental Comments

Within the Department, we received comments on the draft reports from the Health Care
Financing Administration (HCFA) and the Assistant Secretary for Planning and Evaluation
(ASPE). Both agencies concurred with the recommendations; HCFA emphasized the need
for further studies to assess the extent of continued use of potentially inappropriate drugs,
other avenues of possible cost savings related to drugs, and the need to determine and
understand the potential sources of the escalating costs and claims for certain types of drugs
used in nursing homes. The final reports reflect several clarifications or changes based on
their suggestions. The full text of each agency’s comments is provided in the third and final
report of this inspection, “A Pharmaceutical Review and Inspection Recommendations” (OEI-
06-96-00082).

Comments from External Organizations

We also received comments from the following external organizations: American Health
Care Association; American Association of Homes and Services for the Aging; American
Medical Directors Association; American Society of Consultant Pharmacists; and National
Association of Boards of Pharmacy. Most of the associations concurred with one or more of
the recommendations within each of the inspection reports. All commentors support the need
for better communication and coordination between nursing home staff and other healthcare
providers, training nurse aides, and understanding the implications of nursing home
medication services and associated costs.

Several organizations questioned the methodology used in this inspection, particularly for the
consultant pharmacist survey. However, as with any evaluation, there are always some
limitations in how data and information can be obtained, given time and other resource
constraints. Further, while we acknowledge that a survey of this nature introduces some bias
and subjectivity, we also believe that the survey of consultant pharmacists provides us with
an up-close view of what is happening with prescription drug use in nursing homes.
Moreover, the results of the consultant pharmacist survey are consistent with our results from
our two other methodologies.

Some comments expressed concerns about the use of the term, “inappropriate.” As
explained previously, use of this term in reporting concerns with a patient’s medication
regimen are somewhat a matter of opinion. The evidence provided in these three reports
does not prove that any one prescription was improper, but that closer examination is
warranted. Also, while the use of such a drug may be supported by physician orders in
individual cases, use of the drug, in general, is likely to be considered inappropriate.

Some comments addressed the implications of broadening Federal oversight. There is clear
concern about the responsibility for medication issues being the responsibility of the
physician, not the nursing home. Further, some organizations expressed concern that these
particular issues did not result in direct recommendations about the physician’s role for
nursing home patients’ medication regimens. We felt that further examination of this area is



                                                iv
warranted before recommending changes which would impact so many entities involved in
the process.

In conclusion, we believe the three reports collectively, and each using a different approach,
strongly indicate that the intent of the provisions of the OBRA Acts concerning prescription
drug usage are not being clearly fulfilled. Further, HCFA has authority to correct and
enhance quality of care for nursing home patients. The recommendations we present attempt
to facilitate the initial steps of this effort, and to address some concerns evidenced in the
reports and received comments. While we recognize that great strides have been made to
meet the OBRA requirements, we believe further effort remains by all the players involved
(HCFA, associations and their members, nursing homes, and residents and their families) to
further improve quality of care for nursing home patients.

The full text of each organization’s comments is provided in the third and final report of this
inspection, “A Pharmaceutical Review and Inspection Recommendations” (OEI-06-96-
00082).




                                                 V
  �    More than 50 percent of Medicare and Medicaid beneficiaries received drugs from at
       least three of these top five categories in each of the years considered.

Gastrointestinal preparations comprise an increasing proportion of the prescription drugs
used in Texas nursing facilities. Closer scrutiny of the medical necessity of these very
expensive drugs appears warranted.

  �    Almost 47 percent of the residents in our dataset received at least one gastrointestinal
       drug in 1994; their total cost to Medicaid was over $15 million. This single drug
       class accounted for almost 17 percent of all Medicaid prescription drug payments in
       that year, a substantial increase over the 1992 share of 12 percent.

  0    This class of drugs is one of the most expensive, with average payments per
       beneficiary of nearly $385 and an average cost per day of $1.05.

  0    A 1992 study suggests that at least 40 percent of nursing home residents who receive
       these drugs are receiving them for conditions other than those indicated in the medical
       literature. Therefore, curtailing unnecessary or inappropriate use of gastrointestinal
       drugs could result in sizeable program savings.

Total prescription drug payments, average payments per day, and average payments per
beneficiary vary quite widely by Texas nursing home. The reasons for and appropriateness
of these variations are unclear.

Average 1994 prescription drug payments, when arrayed by nursing home, range from a high
of more than $8 per day to as little as 17 cents per day. Total payments per beneficiary
begin at just over $5 and increase to more than $485.

RECOMMENDATIONS

Based on the concerns raised in this report, the Health Care Financing Administration
(HCFA) should work with the States and other responsible entities to understand reasons for
the rapid escalation in costs and claims for certain types of drugs used in nursing homes.
Specific recommendations for HCFA to consider in this endeavor are provided in our third
report, “A Pharmaceutical Review and Inspection Recommendations” (OEI-06-96-00082).

COMMENTS ON THE DRAFT REPORT

We solicited comments from agencies within the Department of Health and Human Services
which have responsibilities for policies related to Medicare and Medicaid and long term care.
We also requested input from several national organizations representing the interests of
nursing homes, patients, or providers. We appreciate the time and efforts of those providing
comments.




                                                 ...
                                                 111
                      TABLE             OFCONTENTS


EXECUTIVE SUMMARY


INTRODUCTION


FINDINGS

 Total prescription drug payments
 Some residents receive potentially inappropriate medications
 Five drug categories account for most payments
 Most beneficiaries receive at least one of five drug categories
 Total payments for the top five drug categories have increased significantly
 Gastrointestinal drugs warrant closer scrutiny
 Payments vary widely by nursing home


RECOMMENDATIONS                                                                  10

COMMENTS ABOUT DRAFT REPORTS                                                     11

ENDNOTES                                                                         13

APPENDICES

 Twenty Drugs Generally Considered Inappropriate for the Elderly                A-l

 General Classification of Prescription Drugs                                   B-l
                               INTRODUCTION

PURPOSE

To describe the extent and appropriateness of drug use by Medicare and Medicaid residents
of Texas nursing homes.

BACKGROUND

Medicaid and Long Term Care

The Medicaid program, created in 1965 under Title XIX of the Social Security Act,
represents the second largest health care expenditure for the Federal government. Funded
jointly by Federal and State governments, it is designed to provide certain basic medical
services, including inpatient hospital care, physician services, and nursing home care. More
than 36 million people received $90.7 billion in Federal money and another $68.8 billion in
State funds for Medicaid reimbursed services during fiscal year 1995.’

In 1995, Medicaid was the primary payment source for the personal health care for 4.4
million Americans over 65. Long term care is one of the largest and fastest growing needs
of the elderly. Medicaid is the primary public program for long term care assistance for the
elderly and disabled. In fiscal year 1995, of $39 billion in program expenditures for care for
this population, $29 billion went for nursing home stays.3

Prescription Drug use in Nursing Homes

Payments for prescription drugs represent a large portion of Medicaid’s expenditures for
nursing homes. Estimates of the average cost per bed range from $600 to $1000 per year.4
In fiscal year 1995, Medicaid payments for prescription drugs reached $9.8 billion.
Medicaid provided services for 1.7 million nursing home residents in the same year. This
suggests that Medicaid paid between $1 billion and $1.7 billion to provide prescription drugs
to residents of long term care facilities. This could be as much as 16 percent of total
Medicaid prescription drug expenditures. But, health care costs associated with inappropriate
use of prescription drugs add to these estimates.

Potential Problems and Costs

Several recent studies suggest that inappropriate use of prescription drugs by the elderly is a
potentially serious health problem and could be adding hundreds of millions of dollars each
year in unnecessary drug and hospitalization costs. The inappropriate use of these drugs can
take a number of the following forms:

�      drug-age contraindication,
0      drug-allergy contraindication,
a      drug-disease contraindication,


                                                1
0      incorrect drug dosage,
0      incorrect duration of drug therapy, and
�      less effective drug therapy.

While approximately 3 percent of all hospital admissions are caused by adverse drug
reactions, the percentage is much higher for the elderly. One study estimated the percentage
of hospitalizations of elderly patients due to adverse drug reactions to be as high as 17
percent, almost six times greater than for the general population.’ The Food and Drug
Administration (FDA) estimates that the annual cost of hospitalizations due to such
inappropriate drug use is 20 billion dollars.6 Much of this cost is in the elderly population
and a large portion of it is borne by government health care programs, including Medicare
and Medicaid.

Not only do the elderly use more prescription drugs than any other age population, they also
tend to be taking several drugs at once, increasing the probability of adverse drug reactions.
The elderly also tend to eliminate these drugs from their system less efficiently due to
decreased bodily functions. Studies also suggest more subtle effects of inappropriate drug
use, such as loss of cognitive or physical function and the potential for an increased risk of
falls among the elderly. Researchers have concluded that a number of prescription drugs
used for the general population should not be prescribed for elderly patients (See Appendix
A). Frequently, other equally effective drugs which present fewer risks are
recommended .7r8

Regulation and Control of Prescription Drug Use in Nursing Homes

As part of the Omnibus Budget Reconciliation Act of 1987 (OBRA 1987), Congress required
regulation of the use of .certain drugs in nursing homes. On October 1, 1990, the Health
Care Financing Administration (HCFA) implemented regulations which hold nursing homes
accountable for monitoring drug use.’

Additionally, physicians must now justify the use of antipsychotic drugs based on specific
diagnoses and observe specific parameters within which these drugs may be used. While
recent studies indicate that the OBRA 1987 regulations may have had a positive effect on
reducing antipsychotic drug use in this population, there is some evidence of continuing
problems of inappropriate prescriptions, multiple presgriptions, and possible drug-drug
interactions. For example, a July 1995 study of 21,884 nursing home residents found that 12
percent of residents in the study were prescribed one or more of 10 nonpsychotropic
medications that are considered inappropriate for use in the elderly. Thirty-one percent of
those residents were receiving more than seven prescription drugs, and 19 percent of this
group had prescriptions for at least one inappropriate medication.”

METHODOLOGY

This report documents prescription drug expenditures and identifies the types of drugs being
used in Texas nursing homes. As part of preinspection, we reviewed 1) current literature
related to prescription drug use by the elderly and 2) Medicare and Medicaid policies


                                                 2
associated with payment and monitoring drug use. To assess the extent of prescription drug
use by Medicare and Medicaid residents, we obtained Medicaid data for Texas nursing home
residents eligible for Medicare and Medicaid for calendar years 1992-94 and the first six
months of 1995. The selection of Texas was purposive based on 1) the availability of
Medicaid data and planned identification of the Medicare and Medicaid population in the
State by HCFA and the Office of the Inspector General (OIG), 2) designation as a
demonstration site for Operation Restore Trust (see description below), and 3) the large
number of nursing facilities in Texas, approximately eight percent of long term care facilities
in the nation. Texas also ranks third in the nation for total Medicaid spending.

This inspection provides insight into several issues related to prescription drug use in nursing
homes. First, we report total program expenditures by year and total expenditures by drug
class, offering a more detailed understanding of precisely what types of drugs are being used
in nursing homes and in what volume they are being used. We also consider expenditures on
drugs regulated by OBRA or deemed inappropriate for use in elderly populations.

For ease of analysis and understanding we have compressed the several thousand different
drugs in our study into 32 general categories. Drugs are combined based on therapeutic
function and pharmacological makeup. For example, the category for which Federal
programs paid the most in 1994, gastrointestinal preparations, include such types of drugs as
those intended to treat ulcers, limit the secretion of certain gastrointestinal fluids, or to treat
gastrointestinal reflux. Some of the most common brand names in this category include
Zuntuc and Pepcid. Other categories include: cardiac, psychotherapeutic, cardiovascular and
antiinfective drugs. A complete list of the categories and the types of drugs each contains
appears in Appendix B. Although we collected and analyzed Texas prescription drug data
for the years 1992 through the first six months of 1995, much of the discussion in this report
is focused on the most current year for which we have complete data, 1994, with
comparisons to the other years where appropriate. Because of the difficulty in estimating the
nursing home population for the full year of 1995, no attempt was made to project these
figures beyond June 30, 1995.

This is the first in a series of three reports detailing our inspection of issues related to
prescription drug use in nursing facilities. The second report, “An Inside View by consultant
Pharmacists” presents the results of a national survey of consultant pharmacists who perform
Federally-mandated monthly drug regimen reviews &rnursing homes. The final report, “A
Pharmaceutical Review and Inspection Recommendations” presents the findings from a
pharmaceutical review of the records of a number of Texas nursing home residents and the
collective recommendations of all three reports.

This inspection was conducted as a part of Operation Restore Trust (ORT). The initiative,
focused in five States (California, Florida, Illinois, New York, and Texas), involves multi-
disciplinary teams of State and Federal personnel seeking to reduce fraud, waste, and abuse
in nursing homes and home health agencies, and by durable medical equipment suppliers.
This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.



                                                 3
                                             FINDINGS

Prescription drag payments for Texas Medicare and Medicaid nursing home residents have
increased rapidly, rising by 20 percent between 1992 and 1994.

      II                                                                                              ,I
                           Table 1: Increasing Prescription Drug Payments for Texas
                                    Medicare and Medicaid Nursing home Residents
      IL-
      I!
                                                                 TOTAL       AVERAGE PAYMENT         ,/
                                           TOTAL             BENEFICIARIES    PER BENEFICIARY        8'
                   YEAR                   PAYMENT              RECEIVING
                                                                                                     'II
                                                                 DRUGS                               !I
                                                                                                    .

                    1992                $75,501,900             83,891’                $900          I

                    1993                $82,517,940             84,895                 $972

                    1994                $91,584,609             85,111                $1076

              Percent Change              +21.3%                +1.45%                i-19.6%

           * 1992 figures projected using calculations   based upon 1994 Medicare and Medicaid to
             total beneficiary ratio.

From 1992 to 1994 total drug payments have increased each year, rising much faster than the
rate of increase in the number of beneficiaries receiving drugs (+ 1.5 percent) and at a
substantially greater rate than the rate of inflation during this period.” As a result, there
was a significant increase (20 percent) in the average payment per beneficiary during this
period. The 1994 total represents just over 17 percent of the total Texas drug claims. A
portion of this growth may be attributable to changes in treatment and practice patterns over
this period. Recognition that older patients may benefit from a more aggressive diagnosis and
treatment of depression, combined with higher costs of newer and potentially safer
antidepressants, as well as increased use of more expensive cardiovascular and cardiac drugs,
may have contributed to the increase.

In 1994, almost 20 percent, or more than 16,600, of Texas’ Medicare and Medicaid
benejkiaries received at least one of the twenty dmgs experts consider potentially
inappropriate for elderly use.

This is 19.6 percent of all beneficiaries in our dataset. Note, however, that although there is
an overall increase in beneficiaries receiving all drugs in the five major cost categories (see
Table 4), there is a downward trend in the percentage of beneficiary claims for
contraindicated drugs (see Table 2). The rate of potentially inappropriate claims has
declined from 2 1.2 percent in 1992 to 20.8 percent in 1993 to 19.6 percent in 1994. The
trend appears to continue in 1995, as only 17 percent of Medicare and Medicaid beneficiaries
receiving drugs had claims for one or more items on the list of contraindicated drugs. While
this is encouraging, it is important to remember that the 1995 figures represent only claims
from the first six months of the year, and it is likely that the final figure will be somewhat


                                                         4
higher for the full year. Regardless, the rate of resident use of contraindicated drugs remains
high enough to be a continuing, serious concern.


            /    Table 2: Beneficiaries     with Claims for Contraindicated   Drug (by   Year) /
            I
            Ii                    BENE WITH                     BENE WITH                      ~I
            Jo YEAR         CONTRAINDICATED DRUG                ANY DRUG         % OF TOTAL    I
            ,                                                                                  I
            II
            Jo 1992                       15,623                  73,814            21.2%      ~~
                                                                                               t
                  1993                    17,617                  84,584            20.8%      :~
                                                                                               ,i
                  1994                    16,670                  85,111            19.6%

                  1995
                 (first 6
                 months)
                                          12,460                  73,328            17.0%



We searched our 1994 dataset for Medicaid payments for several specific drugs experts
generally consider inappropriate for elderly use. The following discussion illustrates some of
the concerns with these problematic drugs.

Examples of contraindictied drags being used in Texas nursing facilities:

Dipyridamole

Just over ten percent of all the Medicare and Medicaid beneficiaries receiving any
prescription drug in 1994 received dipyridamole. This drug falls into the cardiac category
and is used to reduce blood clot formation. It is often prescribed in cases of cardiac valve
replacement or to help prevent recurrence of myocardial infarction, or heart attack.
Dipyridamole is also prescribed as treatment for transient ischemic attacks (TIAs) which can
lead to blindness, paralysis, speech disturbance, or coma. Some experts express concern that
the effectiveness of this drug at low doses is in doubt and that higher doses may lead to
toxicity. They suggest that other, safer drugs are available.12 Our data show Medicaid
programs paid $346,639 for this drug in Texas nursing facilities in 1994.

Psychotherapeutic Drugs

Of particular concern to medical experts and to Congress and the HCFA are drugs that fall
into the psychotherapeutic class. Despite regulatory changes in the late 1980s mandating the
reduction of the use of psychoactive drugs in nursing home patients, several recent studies
indicate that about half of all residents were still being given one or more of these drugs as
late as the mid 1990s.13 Consistent with this literature, in Texas nursing facilities 55.8
percent of Medicare and Medicaid residents received at least one of the drugs in 1994.
During the first half of 1995 48.3 percent of beneficiaries received psychotherapeutics,
indicating continued high usage of drugs in this category.




                                                         5
One of these psychotherapeutic drugs is diazepam, better known by its brand name, Valium.
It is a long-acting benzodiazepine often used to treat dementia, anxiety disorders, and
insomnia. A number of studies cite expert claims that there are other, shorter acting drugs in
the same class that are more appropriate for use in the elderly”. One concern about the use
of diazepam in this population is the tendency, because it remains in the system for quite a
long time, for older folks to become oversedated and uncoordinated when given regular adult
doses. Such effects are likely to result in injuries associated with falls. The HCFA
guidelines, as well as the experts, recommend that physicians attempt to reduce the dosage of
these drugs in elderly people until a minimal effective dose is reached. In 1994, Medicaid
programs paid $8 1,890 for Diazepam for a total of 2,911 Medicaid and Medicare Texas
nursing home beneficiaries.

In the same year, Medicaid programs also paid $159,630 for amitriptyline for 6,459
residents. Also within the psychotherapeutic classification, amitriptyline is used to treat
depression. While there is some concern about the possible underuse of antidepressants in
elderly individuals, experts worry about the number and severity of side effects associated
with this particular drug. Moreover, some of these side effects can be misinterpreted as
symptoms whose treatment might require additional psychoactive drugs. Finally, another
long-acting benzodiazepine in the psychotherapeutic class, flurazepam, was the object of 953
claims for a total of $19,317 in 1994.

Five drag categories account for an expanding majority of total payments for prescription
drags.

These drug categories consistently rank in the top five in terms of total payment for all of the
years for which we have complete data. Also, their share of total payments has grown
significantly from 1992 through the first half of 1995.


     Table 3: Five Drug Categories   Account for the Majority    of Total Prescription     Drug Payments

          GENERAL CLASSIFICATION
                                                         1992            1993            1994    d


  GASTROINTESTINAL PREPARATIONS                          11.9%           15.3%           16.7%         +40.3%

  CARDIAC DRUGS                                           10.4            11.5            12.1         + 16.3

  PSYCHOTHERAPEUTIC DRUGS                                  8.9            10.4            11.4         +28.1

  CARDIOVASCULAR        DRUGS                              6.5             7.8             7.6         + 16.9

  ANTIINFECTIVES                                           4.6             5.7             5.5         + 19.5
                                                                                                 El

  TOTAL                                                   42.3            50.7            53.3   //I


   Gastrointestinal preparations include drugs which are intended to treat ulcers, limit the
   secretion of certain gastrointestinal fluids, or to treat gastrointestinal reflux. Some of the most
   common brand names in this category include Zanfac and Pepcid.




                                                     6
    Cardiac drugs include recognizable brand names such as Procardia. This class of drugs is used
    in treatment of chronic angina pectoris and hypertension and in prevention of angina symptoms,
    such as chest pain and shortness of breath, as well as reduction of blood pressure.

    Psychotherapeutic  drugs, including Prozac, Zolof, and Paxil, are used to treat a number of
    problems ranging from anxiety and depression to insomnia and agitation associated with dementia.

    Cardiovascular drugs such as Capoten and Vasotec are used to treat blood pressure related
    ailments and congestive heart failure.

    Finally, antiinfective drugs are used to treat a wide range of problems including urinary tract
    infections, bone and joint infections, pneumonia, infectious diarrhea, and skin and soft tissue
    infections, such as bed sores.

Additionally, more than 50 percent of all beneficiaries received drags from at least three of
the top five classifications in each year for which we have data.

From 1992 through 1994 over 50 percent of all Texas Medicare and Medicaid nursing home
residents were reimbursed for at least one prescription from the cardiac, psychotherapeutic,
and antiinfective drug categories.


                 Table 4: Percent of Total Beneficiaries   Receiving   Prescription    Drugs           I
                                                                                                       I
  GENERAL CLASSIFICATION                                     1992                1993          1994

  ANTIINFECTIVES                                            58.8%              63.9%           63.5%   ’
                                                                                                       I
  PSYCHOTHERAPEUTIC DRUGS                                    50.8               53.2           55.8    /
                                                                                                       /
  CARDIAC DRUGS                                              50.2               51.4           51.5    I

  GASTROINTESTINAL PREPARATIONS                              40.5               44.9           46.8    I
                                                                                                       1
  CARDIOVASCULAR        DRUGS                                27.7               28.2           28.9




Total payments for the top five categories of drags increased very rapidly from 1992
through 1994. The proportion of total beneficiaries who receive them also grew.

From 1992 to the end of 1994 the proportion of total beneficiaries receiving gastrointestinal
drugs rose more than 15 percent. With this increase in use came a major increase (94
percent) in the total payments for these drugs. Similarly, total payments for
psychotherapeutic drugs rose nearly 92 percent, while the percent of total beneficiaries
receiving these drugs increased by about 10 percent. Though not as high, the other three top
categories also saw an increases of 60 percent or more in payments, coupled with moderate
growth in the percent of total beneficiaries receiving them. To place this change in
perspective, recall from Table 1 that total drug payments increased just over 21 percent from
1992 through 1994.




                                                    7
                                                                                                     __-
!! Table 5: Percent Change 1992-1994, Percent of Total Beneficiaries Receiving    Prescription   Drugs and   ~
11                           Total Payment for Five Drug Classifications

          GENERAL CLASSIFICATION                    Percent Total Beneficiaries          Total Payment
                                                    (% change)                            (X change)

,   GASTROINTESTINAL PREPARATIONS                            +15.5%                        + 93.6%
                                                                                                             1
~   PSYCHOTHERAPEUTIC DRUGS                                   + 9.8                        + 91.8            Ii
                                                                                                             I
~   CARDIOVASCULAR                                            + 4.3                        + 60.2
                                                                                                             I’i
,
    ANTIINFECTIVES                                            + 8.0                        + 63.8            ,~
                                                                                                             in
/   CARDIAC DRUGS                                             + 2.5                        + 59.6            II




Gastrointestinal preparations comprise an increasing proportion of the prescription drugs
used in Texas nursing facilities. Closer scrutiny of the medical necessity of these very
expensive drugs appears warranted.

Some experts in elderly health care are concerned about the increasing use of certain
gastrointestinal drugs. Within this classification, Histamine-2 receptor antagonists have
become a very popular treatment for many acid related gastrointestinal disorders including
peptic ulcers and gastroesophegeal reflux. Two of the most common of these drugs are
cemetidine and ranitidene, better known as Tagamet and Zantac, respectively. A 1992 study
conducted in a large long term care facility indicated that more than 40 percent of patients
receiving these drugs were receiving them for reasons unsubstantiated by the medical
literature. l5

Because there are relatively few side effects associated with these drugs when prescribed in
proper doses the concern about their use is not a major quality of care issue. However, it
can become a significant cost issue. These particular drugs are very expensive. In fact, in
1994 Federal programs paid $15,325,877 for gastrointestinal drugs. A total of 33,575 or
almost 47 percent of all Texas nursing home beneficiaries received at least one
gastrointestinal drug. Zuntuc accounted for $5,921,810 of those payments while $751,588
was for Tugamet. At more than $380 per year per beneficiary, gastrointestinal drugs are
also among the most expensive types of drugs covered by Federal programs. Thus, if 40
percent or more of these claims are not medically necessary, there should certainly be an
economic benefit from reducing their inappropriate use.

Total prescription drug payments, average payments per day, and average payments per
beneficiary vary quite widely by Texas nursing home. The reasons for, and
appropriateness of, these variations are unclear.

Average 1994 prescription drug payments, when arrayed by nursing home, range from a high
of more than $8 per day per facility to as little as 17 cents per day. Payments per
beneficiary in a particular facility begin at just over $5 and increase to more than $485. The



                                                    8
1994 data also reveal that the average total payment aggregated             at the nursing home level is
just over $82,000. Total payments per facility range from under $10 to more than $335,000
for that year. Almost 10 percent of facilities had total resident reimbursements under
$10,000, while 30 percent of facilities had total reimbursements             of more than $100,000.
Table 6 illustrates the variation in prescription drug payments when considered at the facility
level.

      Ii                                                                                            7
      ~~                       Table 6: 1994 Average Prescription Drug Payments;                        ,I
                                       Totals, Per Beneficiary, and Per Day
                                                                                                        I’
      pi                                         (by Nursing Home)
                                                                          7
                                                               MINIMUM      MAXIMUM         MEAN        ‘1
      I
           TOTAL PAYMENT                                        9.89         336,539        82,939      ~
           (per facility)

           AVERAGE PAYMENT PER BENEFICIARY                     5.26           487.23         158.95
      / (per facility)
                                                                                                        1
      I
      / AVERAGE PAYMENT PER DAY                                0.17            8.82          0.73       1
      1 (per facility)
      1                                                                                                 I


                *For this analysis, facilities with fewer than 5 beneficiaries were excluded. Also, one
                extreme case, whose average payment per day value is 60 percent higher than the next
                lowest value, was omitted.

While some of these differences are certainly attributable to the number of beneficiaries
residing in a particular facility, it is likely that other factors also contribute to the variation.
However, our existing data does not reveal a relationship that explains these differences.
When claims data for a particular class of drugs are arrayed by nursing home, no
characteristics consistently differentiate those with high costs per beneficiary or per day from
those with lower costs. Following the compilation of additional data, we plan further
analysis to determine what other variables, such as facility type, severity of resident illness,
and types and numbers of other services, contribute to these wide differences in payments at
the nursing home level.




                                                        9
                        RECOMMENDATIONS

Based on the concerns raised in this report, more work is necessary to understand reasons for
the rapid escalation in costs and claims for certain types of drugs used in nursing homes.
Specific recommendations for HCFA to consider in this endeavor are provided in our third
report of this inspection, “A Pharmaceutical Review and Inspection Recommendations” (OEI-
06-96-00082).




                                             10
     COMMENTS                     ABOUT             DRAFT            REPORTS

We solicited comments from agencies within the Department of Health and Human Services
which have responsibilities for policies related to Medicare and Medicaid and long term care.
We also requested input from several national organizations representing the interests of
nursing homes, patients, or providers. We appreciate the time and efforts of those providing
comments.

Departmental Comments

Within the Department, we received comments on the draft reports from the Health Care
Financing Administration (HCFA) and the Assistant Secretary for Planning and Evaluation
(ASPE). Both agencies concurred with the recommendations; HCFA emphasized the need
for further studies to assess the extent of continued use of potentially inappropriate drugs,
other avenues of possible cost savings related to drugs, and the need to determine and
understand the potential sources of the escalating costs and claims for certain types of drugs
used in nursing homes. The final reports reflect several clarifications or changes based on
their suggestions. The full text of each agency’s comments is provided in the third and final
report of this inspection, “A Pharmaceutical Review and Inspection Recommendations” (OEI-
06-96-00082).

Comments from External Organizations

We also received comments from the following external organizations: American Health
Care Association; American Association of Homes and Services for the Aging; American
Medical Directors Association; American Society of Consultant Pharmacists; and National
Association of Boards of Pharmacy. Most of the associations concurred with one or more of
the recommendations within each of the inspection reports. All commentors support the need
for better communication and coordination between nursing home staff and other healthcare
providers, training nurse aides, and understanding the implications of nursing home
medication services and associated costs.

Several organizations questioned the methodology used in this inspection, particularly for the
consultant pharmacist survey. However, as with any evaluation, there are always some
limitations in how data and information can be obtained, given time and other resource
constraints. Further, while we acknowledge that a survey of this nature introduces some bias
and subjectivity, we also believe that the survey of consultant pharmacists provides us with
an up-close view of what is happening with prescription drug use in nursing homes.
Moreover, the results of the consultant pharmacist survey are consistent with our results from
our two other methodologies.

Some comments expressed concerns about the use of the term, “inappropriate. ” As
explained previously, use of this term in reporting concerns with a patient’s medication
regimen are somewhat a matter of opinion. The evidence provided in these three reports
does not prove that any one prescription was improper, but that closer examination is


                                               11
warranted. Also, while the use of such a drug may be supported by physician orders in
individual cases, use of the drug, in general, is likely to be considered inappropriate.

Some comments addressed the implications of broadening Federal oversight. There is clear
concern about the responsibility for medication issues being the responsibility of the
physician, not the nursing home. Further, some organizations expressed concern that these
particular issues did not result in direct recommendations about the physician’s role for
nursing home patients’ medication regimens. We felt that further examination of this area is
warranted before recommending changes which would impact so many entities involved in
the process.

In conclusion, we believe the three reports collectively, and each using a different approach,
strongly indicate that the intent of the provisions of the OBRA Acts concerning prescription
drug usage are not being clearly fulfilled. Further, HCFA has authority to correct and
enhance quality of care for nursing home patients. The recommendations we present attempt
to facilitate the initial steps of this effort, and to address some concerns evidenced in the
reports and received comments. While we recognize that great strides have been made to
meet the OBRA requirements, we believe further effort remains by all the players involved
(HCFA, associations and their members, nursing homes, and residents and their families) to
further improve quality of care for nursing home patients.

The full text of each organization’s comments is provided in the third and final report of this
inspection, “A Pharmaceutical Review and Inspection Recommendations” (OEI-06-96-
00082).




                                               12
                                 ENDNOTES

1.    Once we identified the dually-eligible population, we extracted Medicaid payments
      for drugs provided during a nursing home stay from data currently maintained by
      HCFA or the OIG. Only the first six months of claims data were available for
      1995. These figures are included in our analysis where appropriate. Due to the
      difficulty in estimating the nursing facility population for the full year, no attempt
      was made to project these figures beyond June 30, 1995.

2.    Health Care Financing Administration, BDMS Division of Medicaid Statistics,
      1996.

3.    HCFA, BDMS, OSM, Division of Program Systems, 12/19/1996.

4.    Keitz, Todd. “10 Things You Should Know About the Long Term Care Market.”
      Medical Marketing and Media. 30(5):42-46. May 1995.

5.    Beard, Keith. “Adverse Reactions as a Cause of Hospital Admission in the Aged,”
      Drugs & Aging, Vol. 2, No. 4 (July/Aug. 1992), pp. 356-67.

6.    General Accounting Office. “Prescription Drugs and the Elderly: Many Still
      Receive Potentially Harmful Drugs Despite Improvements. ” Letter Report
      GAO/HHES-95-152. July 24, 1995.

7.    Spore DL, Mor V, Larrat P, Hawes C, Hiris J, “Inappropriate Drug Prescriptions
      for Elderly Residents of Board and Care Facilities. ” American Journal of Public
      Health, Vo1.87, No. 3 (March 1997), pp. 404-409.

8.    Beers, Mark, Joseph G. Ouslander, Irving Rollingher, et al. “Explicit Criteria for
      Determining Inappropriate Medication Use in Nursing Home Residents. ” Archives
      oflnternal Medicine, Vol. lSl(Sept. 1991), pp. 1825-32.

9.    42 CFR Set 483.60.

10.   Ukens, Carol. “Warning Sign. ” Drug Topics. 139 (13); 56 July 10, 1995.

11.   The inflation rate based on the Consumer Price Index was just over 6 percent for
      this period and 6.7 percent based upon the CPI: Medical Index for Prescription
      Drugs. Thus, the adjusted growth rate for average payments per beneficiary
      remains approximately 13 percent based upon either index.
      Source: Bureau of Labor Statistics, U.S. Department of Labor

12.   Beers, et al. 1991; Avom and Gurwitz, 1995.

13.   Avom and Gurwitz, 1995., Beers, Ouslander, et ai.,1992.




                                           13
14.   GAO, July 24, 1995; Beers, et al, 1991; Avom, Jerry and Jerry H. Gurwitz.
      “Drug Use in the Nursing Home. ” Annals of Internal Medicine, Vol 123 (August,
      1995), pp. 195-204.

15.   Gurwitz, JH, JP Noonan, and SB Soumerai. “Reducing the Use of H2-Receptor
      Antagonists in the Long-Term-Care Setting, ” Journal of the American Geriatric
      Society 1992; Vol 40 pp.359-64.




                                         14
                                   APPENDIX                  A

                                 20 Drugs Generally Considered
                                  Inappropriate for the Elderly


The 20 drugs listed below were judged generally inappropriate for elderly patients by a panel of
experts. The panel’s results and methodology, published in 1991, indicate that these drugs should
normally not be used with elderly patients. However, they stress that there could be some medical
situations in which use of these drugs would be appropriate.


        Medication                        Use                         Comment

    Amitriptyline                     To treat                      Other antidepressant
                                      depression                    medications cause
                                                                    fewer side effects

    Carisoprodol                      To relieve severe             Minimally effective
                                      pain caused by                while causing
                                      sprains and back              toxicity; potential
                                      pain                          for toxic reaction
                                                                    is greater than
                                                                    potential benefit

    Chlordiazepoxide                  As a (minor) tranquilizer     Shorter-acting
                                      or antianxiety                benzodiazepines are
                                      medication                    safer alternatives

    Chlorpropamide                    To treat diabetes             Other oral medications
                                      (a hypoglycemic agent)        have shorter half-lives
                                                                    and do not cause
                                                                    inappropriate
                                                                    antidiuretic hormone
                                                                    secretion

    Cyclandelate                      To improve blood              Effectiveness is in
                                      circulation                   doubt; no longer available
                                                                    in the U.S.




                                                A -1
    Medication         Use                      Comment

Cyclobenzaprine   To relieve severe           Minimally effective
                  pain caused by              while causing
                  sprains and back            toxicity; potential
                  pain                        for toxic reaction
                                              is greater than
                                              potential benefit

Diazepam          As a (minor) tranquilizer   Shorter-acting
                  or antianxiety              benzodiazepines are
                  medication                  safer alternatives

Dipyridamole      To reduce blood-            Effectiveness at low
                  clot formation              dosage is in doubt;
                                              toxic reaction is
                                              high at higher
                                              dosages; safer
                                              alternatives exist

Flurazepam        As a sleeping pill          Shorter-acting
                  (a hypnotic)                benzodiazepines are
                                              safer alternatives

Indomethacin      To relieve the              Other nonsteroidal
                  pain and                    anti-inflammatory
                  inflammation of             agents cause less
                  rheumatoid                  toxic reactions
                  arthritis

Isoxsuprine       To improve blood            Effectiveness is in
                  circulation                 doubt

Meprobamate       A (major) tranquilizer      Shorter-acting
                  (used for anxiety)          benzodiazepines are
                                              safer alternatives

Methocarbamol     To relieve severe           Minimally effective
                  pain caused by              while causing
                  sprains and back            toxicity; potential
                  pain                        for toxic reaction
                                              is greater than
                                              potential benefit




                             A -2
        Medication                       Use                      Comment

    Orphenadrine                    To relieve severe           Minimally effective
                                    pain caused by              while causing
                                    sprains and back            toxicity; potential
                                    pain                        for toxic reaction
                                                                is greater than
                                                                potential benefit


    Pentazocine                     To relieve                  Other narcotic
                                    moderate to severe          medications are
                                    pain                        safer and more
                                                                effective

    Pentobarbital                   As a sleeping pill          Safer sedative-
                                    and to reduce               hypnotics are
                                    anxiety (hypnotic)          available

    Phenylbutazone                  To relieve the              Other nonsteroidal
                                    pain and                    anti-inflammatory
                                    inflammation of             agents cause less
                                    rheumatoid                  toxic reactions
                                    arthritis

    Propoxyphene                    To relieve mild to          Other analgesic
                                    moderate pain               medications are more
                                                                effective and safer

    Secobarbital                    As a sleeping pill          Safer sedative-
                                    and to reduce               hypnotics are
                                    anxiety (hypnotic)          available

   Trimethobenzamide                To relieve nausea           Least effective of
                                    and vomiting                available
                                                                antiemetics




Source:
Beers, Mark, Joseph G. Ouslander, Irving Rollingher, et al. “Explicit Criteria for Determining
Inappropriate Medication Use in Nursing Home Residents. ” Archives of Internal Medicine, Vol.
lSl(Sept. 1991), pp. 182532.



                                               A -3
                                 APPENDIX                 B

                          General Classification of Prescription Drugs


Analgesics
  Analgesics, narcotic
  Analgesics, non-narcotic general
  Antidotes

Anesthetics
   Anesthetic local/topical

Antiarthritics

Antiasthmatics
   Bronchial dialators
   Xanthine derivatives

Antihistamines
   Antihistamines
   Antipruritics

Antiinfectives
   Tetracyclines
   Penicillins
   Streptomycins
   Sulfonamides
   Erytrhomycins
   Cephalosporins
   Antibacterials, urinary
   Chloramphenicol
   TB preparations

Antiinfectives, miscellaneous
   Antimalarials
   Trimethoprim
   Vaginal cleaners

Antineoplastics (anti-tumor)

Antiparkinson drugs

Autonomic drugs
   Cardiovascular preparations, other
   Parasympathetic agents

Blood
   Antigoagulants
   Hemostatics


                                              B-l
Cardiac drugs
   Vasodilators, coronary
   Digitalis preparations

Cardiovascular
   Aldosterone antagonists
   Lipotropics
   Cholesterol reducers
   Rauwolfias
   Hypotensives, other
   Vasodilators, peripheral

CNS drugs (central nervous system)
  Anticonvulsants

Contraceptives

Cough and cold preparations
   Antitussives-expectorants
   Cough and cold preparations
   Adrenergics

Diuretics

Electrolyte, caloric and fluid replacement
   Iodine therapy
   Protein lysates
   Electrolytes & miscellaneous nutrients
   Hematinics

EENT preparations-(eye, ear, nose, and throat)
  Nasal and otic preparations, topical
  Ophthalmic preparations

Gastrointestinal preparations
   Anti-ulcer/other gastrointestinal preps
   Antidiarrheals
   Antispasmodic-anticholinergics
   Bile therapy
   Laxatives
   Antinauseants
   Digestants
   Hemorrhoidal preparations

Hormones
   Corticotropins
   Mineralocorticoids
   Anabolics
   Androgens
   Estrogens
   Progesterone
   Other hormones
   Oxytocics


                                             B-2
Hypoglycemics

Misc. Med. Supplies, devices & other non drug
   Medical supplies, devices and other non-drug products

Muscle relaxants

Psychotherapeutic drugs
   Ataractics-tranquilizers
   CNS (central nervous system) stimulants
   Psychostimulants-antidepressants

Sedative and hypnotics
   Sedative, barbiturate
   Sedative, non-barbiturate

Skin preparations
   Antibiotics, other
   Antiparasitics
   Antivirals
   Antibacterials and antiseptics, general
   Glucocorticoids
   Enzymes
   Emollients, protectives
   Fungicides
   Dermatologicals, all other

Thyroid preps
   Thyroid preparations
   Antithyroid preparations

Biologicals

Pre-natal vitamins
   Multivitamins

Vitamins, all others
   Vitamins, fat soluble
    Folic acid preparations
   B complex with vitamin c preparations
   Vitamin k preparations

Unclassified drug products




                                             B-3
